 INTERIM REPORT ON THE DEPARTMENT OF

    JUSTICE’S HANDLING OF KNOWN OR 

  SUSPECTED TERRORISTS ADMITTED INTO 

THE FEDERAL WITNESS SECURITY PROGRAM


           U.S. Department of Justice

         Office of the Inspector General

                  Audit Division



                 Report 13-23

                  May 2013




            PUBLIC SUMMARY
                                  PUBLIC SUMMARY 


                        INTERIM REPORT 

                ON THE DEPARTMENT OF JUSTICE'S 

         HANDLING OF KNOWN OR SUSPECTED TERRORISTS 

     ADMITTED INTO THE FEDERAL WITNESS SECURITY PROGRAM 



       The Department of Justice Office of the Inspector General (OIG) is
conducting an audit of the federal Witness Security Program (WITSEC
Program). While conducting this audit, we found significant issues
concerning national security that we believe required immediate remedy.
We notified Department of Justice (Department) leadership of the
vulnerabilities we identified, and we developed this interim report to help
ensure that the Department promptly and sufficiently addressed the
deficiencies we found. As of March 2013, the Department stated that it had
or was in the process of implementing corrective actions to address all 16 of
the recommendations we make in this report. We will continue our review
and evaluate the Department's progress in implementing these corrective
actions.

       Due to statutory restrictions and concerns about national security and
the safety of WITSEC Program partiCipants cited by the Department, most of
the results in our full interim report are not releasable publicly. This
unclassified summary includes publicly releasable information from our full
interim report.

Background

      Since the ,WITSEC Program's inception in 1971, more than
8,400 witnesses and 9,900 family members and other associates of
witnesses have been admitted into the WITSEC Program.! This report
focuses on the WITSEC Program activities that are administered by: (1) the
Criminal Division's Office of Enforcement Operations (OEO) and (2) the
United States Marshals Service (USMS).2 As of May 15, 2012, the USMS
WITSEC Program had approximately 700 active partiCipants. Participants in
the USMS WITSEC Program are relocated to an area believed to be safe from

       1 The figures presented here include both incarcerated and not incarcerated
witnesses and are estimates, as the Criminal Division's Office of Enforcement Operations
(OEO) officials have stated that the total number of partiCipants in the WITSEC Program is
not known.

        2 The Federal Bureau of Prisons portion of the WITSEC Program is not the focus of
this report.


                                           - 1­
those who may want to harm them; provided a new identity; and afforded
financial subsistence, occupational training, and other means necessary for
them to acclimate in their new location.

       The WITSEC Program was designed to protect witnesses, and their
dependents, who were in danger as a result of their agreement to testify for
the government in organized crime cases. The program has evolved over
the past 40 years to admit witnesses who agree to testify in a variety of
cases, including drug trafficking, violent gang, and terrorism cases. We
found that WITSEC Program participants include individuals known or
suspected by the government to be involved in terrorism. 3 This includes
individuals trained in areas such as aviation and explosives, involved in
plotting bomoing attacks, and guilty of serious offenses such as conspiracy
to murder U.S. nationals.

       The Department told us that the WITSEC Program was and remains a
critical prosecutorial tool to combat terrorism. The Department stated that
known or suspected terrorists admitted into the WITSEC Program provided
invaluable and critical information and testimony that assisted the
government in identifying, dismantling, and prosecuting terrorist
organizations. These witnesses cooperated in major terrorism investigations
and prosecutions that the Department described as integral to its primary
counterterrorism mission, including the 1993 World Trade Center bombing,
the East Africa Embassy bombings, the "Blind Sheik" prosecutions, the Alfred
P. Murrah Federal Building attack in Oklahoma City, the New York City
subway suicide-bomb plot, and the plot to bomb John F. Kennedy
International Airport. The Department believes that as a result of their
cooperation, the known or suspected terrorists admitted into the WITSEC
Program faced danger of retaliation. 4




       3 The Terrorist Screening Center's Watchlisting Guidance established definitions for
known or suspected terrorists. Persons meeting these definitions are considered to be
known or suspected terrorists by the u.s. government. TSC personnel stated that there is
no "former" known or suspected terrorist designation.

       4 This report addresses vulnerabilities and weaknesses in the handling of known or
suspected terrorists when admitted into the WITSEC Program. We recognize the
extraordinary importance of these prosecutions and therefore, our report is not intended to,
and does not, assess the overall value or the processes that precede the admittance of
known or suspected terrorists into the WITSEC Program, including the value of their
testimony or cooperation.



                                           -2­
National Security Vulnerabilities

      When handling known or suspected terrorists in the WITSEC Program,
national security risks must be mitigated by specific, formalized procedures
that consider national security implications along with the protection of
WITSEC participants. We found significant deficiencies in the handling of
known or suspected terrorists who were admitted into the WITSEC Program.
Specifically, we determined that OEO and the USMS - the two entities
primarily responsible for managing the WITSEC Program for participants who
are not incarcerated - did not involve national security stakeholders when
admitting and monitoring known or suspected terrorists into the WITSEC
Program. s

      To help protect witnesses from the persons and organizations against
whom they testify, the USMS provides a WITSEC participant and his or her
dependents with a new name and necessary identity-related documentation.
We found that the Department was not authorizing the disclosure to the
Terrorist Screening Center (TSC) of the new identities provided to known or
suspected terrorists in the WITSEC Program. 6 The TSC's consolidated
terrorist watchlist is exported to various screening databases to include the
Transportation Security Administration's (TSA) No Fly and Selectee lists,
which are used to identify known or suspected terrorists attempting to fly on
commercial airlines. Individuals placed on the TSA's No Fly list are
prohibited from flying on commercial planes and individuals on the TSA's
Selectee list require additional screening procedures in order to board a
commercial aircraft.

       As a result of the Department not disclosing information on these
known or suspected terrorists, the new, government-provided identities of
known or suspected terrorists were not included on the government's
consolidated terrorist watchlist until we brought this matter to the
Department's attention. Therefore, it was possible for known or suspected
terrorists to fly on commercial airplanes in or over the United States and
evade one of the government's primary means of identifying and tracking

        5 National security stakeholders such as the FBI and DEA may be involved in the
WITSEC Program admission process as· sponsoring agencies. A sponsoring agency provides
WITSEC Program personnel with information on the witness, including a threat assessment
and a risk assessment. The threat assessment evaluates the threat to the witness for
cooperating with the federal government while the risk assessment reports on potential
risks to the public caused by the witness' enrollment in the WITSEC Program.

        6 The TSC is managed by the Federal Bureau of Investigation (FBI) and was
established to serve as the U.S. government's consolidation point for. information about
known or suspected terrorists.



                                            -3 ­
terrorists' movements and actions. For example, we identified some
WITSEC Program participants who were on the TSA's No Fly list yet were
allowed to fly on commercial flights with WITSEC Program officials'
knowledge and approval. Moreover, these individuals, on their own accord,
could have flown without WITSEC Program officials' knowledge and approval.
As a result of our review, the Department established protocols to share the
identities of known or suspected terrorists authorized into the USMS WITSEC
Program with the TSC as well as the FBI. Further, in May 2012 the
Department implemented revised protocols and improved its security
measures regarding participants' use of commercial flights.

       We verified that as of July 2012 the USMS had disclosed to the FBI and
TSC the government-provided identities for a majority of the known or
suspected terrorists who the Department has identified being admitted into
the WITSEC Program. The FBI is reviewing this matter and, as of July 2012,
FBI officials stated that the FBI had not identified an immediate threat tied
to the provided identities. In July 2012 the Deputy Director of OEO stated
that OEO authorized and the USMS disclosed to the TSC the identity
information on additional WITSEC participants who the Department had
identified as known or suspected terrorists. In September 2012, OEO and
FBI officials informed us that information on these individuals had been
shared with the FBI. The Department stated that as of March 2013: (1) the
FBI had completed all but one of the threat assessments on WITSEC
Program participants disclosed to them as having a potential nexus to
terrorism, and (2) none of these individuals have revealed a threat to
national security at this time. 7 We have not verified this information, and as
we continue our review we intend to evaluate the Department's stated
progress on this matter.

      In July 2012, the USMS stated that it was unable to locate two former
WITSEC participants identified as known or suspected terrorists, and that
through its investigative efforts it has concluded that one individual was and
the other individual was believed to be residing outside of the United States.

      In addition, we found that the Department did not definitively know
how many known or suspected terrorists were admitted into the WITSEC
Program. The Department has identified a small but significant number




       7 The Department stated that the remaining threat assessment yet to be completed
involves a WITSEC participant in BOP custody who has not been provided a new identity.



                                         -4­
of USMS WITSEC Program participants as known or suspected terrorists. 8 As
of March 2013, the Department is continuing to review its more than 18,000
WITSEC case files to determine whether additional known or suspected
terrorists have been admitted into the program. Therefore, we believe the
number may not be complete and may continue to evolve.

        We also found that OEO and the USMS did not share case information
of potential value to the FBI. Before May 2012, OEO, the USMS, and FBI did
not have a formal process to share WITSEC terrorism information. In one
instance, we noted that in a June 2009 field report a USMS Inspector
reported his belief that a WITSEC participant was trying to gather
intelligence on sensitive policies and procedures of the USMS WITSEC
Program for militant Muslim groups. We found no evidence that this
information was shared with the FBI when it was reported to USMS WITSEC
headquarters personnel near the time the Inspector recorded this concern.
USMS WITSEC Program personnel surmised that this information was not
passed to the FBI at that time because USMS WITSEC Program officials
determined that the statements about the witness gathering intelligence for
a terrorist group were more based in opinion than fact and that the witness
was concerned about the appropriate amount of funding the witness' family
was receiving. Nevertheless, certain WITSEC personnel with whom we
discussed this matter stated that the information should have been shared
with the FBI at the time it was originally reported. Following our discussion
with WITSEC Program personnel about this matter, we were informed by an
FBI official that this information was shared with the FBI in February 2012,
years after the Inspector originally stated his concern. We believe
information such as that found in this situation must be shared with the FBI
immediately, so that the FBI, as national security experts, can determine the
appropriate action.

      As we identified these and other national security vulnerabilities,
WITSEC Program managers expressed concern for the confidentiality of the
WITSEC Program and the safety of its participants. OEO, USMS, and FBI
National Joint Terrorism Task Force officials stated that in December 2010
they began working to establish a formal process to address some of the
issues we identified. FBI officials stated that OEO was willing to provide the
information to the FBI, but an agreement could not be reached on the
number of individuals who would have access to WITSEC information. The

        8 The Department requested that we not release publicly the actual number of
known or suspected terrorists admitted into the WITSEC Program due to concerns over the
sensitivity of the information. We consider the total number of known or suspected
terrorists to be small as it relates to the number of all participants admitted into the
WITSEC Program.



                                          -5­
FBI stated that despite delays, it believed there was an understanding
amongst all the agencies about the need to develop a protocol.

       Once the Department's senior leadership was made aware of the
issues concerning known or suspected terrorists in the WITSEC Program, the
Department's senior leadership immediately directed the initiation of
corrective actions to address the national security vulnerabilities we
identified. For example, the Deputy Attorney General and the Director of the
USMS ensured that all witness identities were compared against the
consolidated terrorist watchlist to identify all witnesses who had a watchlist
record.

       In our report we make 16 recommendations to the Deputy Attorney
General to assist the Department in its efforts to include national security
considerations when identifying, admitting, monitoring, and terminating
WITSEC Program participants who are known or suspected terrorists. The
Department stated that as of March 2013 it had implemented corrective
actions for 15 of these recommendations and was in the process of
implementing corrective action on the remaining recommendation. These
actions include sharing WITSEC Program participant identity and case file
information with the FBI and TSC on known or suspected terrorists,
performing threat assessments on known or suspected terrorists admitted
into the WITSEC Program, and developing protocols for enhanced monitoring
of these individuals. As we continue our review of the WITSEC Program, we
will evaluate and report on the Department's progress in implementing its
corrective actions to address our recommendations.




                                    -6­
                                                                                          APPENDIX I 


              DEPARTMENT OF JUSTICE RESPONSE 

                                                   u.s. Department of Justice
                                                   Office of the Deputy Attomey General




                                                   Mbihingro.., D.C.   2tJ5j(J

                                                       May 6,2013



 MEMORANDUM

To:            Michael E. Horowitz
               Inspector General
               U.S. Department ofJustice

Through:       Raymond 1. Beaudet
               Assistant Inspector General for Audit

From:          Armando O. BoniIl~--
               Senior Counsel to the Deputy Attorney General

Subject:      Public Summary: Department of Justice's Response to the Office of the Inspector
              General's Draft Interim Audit Report entitled Department ofJustice ~ Handling
              ofKnown or Suspected Terrorists Admifledinto the Federal Witness Security
              Program (Apr. 19,2013)

       Thank you for the opportunity to respond to the Office of the Inspector General's
April 19,2013 draft interim audit report entitled Department ofJustice:V Handling ofKnown or
Suspected Terrorists Admitted into the Federal Witness Security Program (OIG Audit Report).
The Department appreciates the OIO's role in periodically auditing the federal Witness Security
Program (WitSec Program or Program), I and believes that, through our combined efforts, the
Program bas undergone significant improvements since the OIG first audited the Program in
September 1993.


         I The OlG previously audited the WitSec Program on several occasions, as documented
 in audit reports dated September t993, November 1993, January 2002, March 2005. and October
2008. See The Federal Bureau ofPrlsons Witness Security Program, Audit Report 09-01
(Oct. 2008), available at http://wwwJustice.gov/oigireportsiBOP/a09Ol/final.pdf; U.S. Marshals
Service Administration ofIhe Witness Security Program, Audit Report 05-.1 0 (Mar. 2005).
available at http://www.justice.gov/oig/reportslUSMS/a05usmsifinaI.pdf; The Federal Witness
Security Program, Criminal Division, Audit Report 02-05 (Jan. 2002). available at http://www.
justice.gov/oigireportsiOBD/a0205/intro.htm; U.s. Marshals Service's ResponsibUities Under
the Witness Security Program, Audit Report 94-7 (Nov. 1993); Admission into the Department of
Justice's Witness Security Program by the Criminal Division, Audit Report 93-24 (Sept. 1993).
                                  .        Page 1 ofS




                                             -7­
                                                                                      APPENDIX I 





        For over 40 years, the WitSec Program has enabled the GovQtlUllent to bring to justice 

the most violent and dangerous criminals by providing critical protection for witnesses fearing 

for their safety. During the last two decades, as the Government has agg~esstvely investigated 

and prosecuted those involved in domestic and international terrorism. the Program necessarily 

hasinelueJed a small number of/ormer mown or suspected terrorists.2 In the last six years, 

only two fonner known or suspected terrorists .havebeen admitted into the Program and given 

a neW identity and relocation services. As noted :in the QlG A.udit Report, these witnesses have 

provided e.Ssential assistance in a number ofhighly significant cases. such as the prosecutions 

ariSing from the 1995 bombing ofthe AlfredP. Murrah Federal Building in Oklahoma City. 


        Prior to being admitted into the Program, whether in a terrorism case or otherwise.
the witness undergoes an intensive vetting process~ Witnesses are admitted into the Program
onlyi!' and afier.the sponsoring law enforcement agency - in most cases the Federal Bureau of
Investigation (FBI) - the sponsoring United States Attorney, the United States Marshals Service
(USMS). and the Criminal Division's Office ofEnforcement Operations (OEO) have determined
that the witness is suitable fOf tbe Program and the need to admit the witness outweighs the ris.k
to the public and. the relocation oommunity. See 18 U;S.C. ~ 3521 (c). Notably, in the 40:..year
history ofthe WitSec Program,no terrorism-linked witness ever has committed a single act
ofterrorism after entering the Program. And. as noted in the GIG Audit RePQrt~ the FBI's review
ofthis matter has concluded that "none ofthese individuals baverev~led a threat to national
seeurtty at this tUne."

        The OIG Audit Report faults 000 and the USMS for not more fully involving national
security stakeholders in the admission and monitoring of former known and suspected terrorists
in the WitSec Program. As demonstrated by the Department's engagement with OIG throughout
this audit. we agree that the suitability and monitoring requirements: historically employed in
administering the Program should be enhanced for terrorism-linked witnesses. When this audit
commenced in October lZOn, OBO. the USMS, and the FBI already were working to remedy.
among the issues raised in the. OIG AuditReport, the information sharing deficiencies between
national security stakeholders concerning terrorism-linked witnesses admitted into the WitSec
Program.



        1 The OIG Audit Report identifies these individuals as "known or suspected terrorists,"
citing the Terrorist. Screening Center's (TSC) Watchlisting Guidance. In doing so, theOIG Audit
Report fails to take into account the extensive vetting these WitSec Program partiCipants undergo
before being fonnally sponsored. and then admitted. into the Program, and the fact that these
individuals are cooperating with the government, and often testifY in terrorism-related
prosecutions. Additionally. throughout this audit" the Department.andthe. 010 have used a much
broader definition than thateontained in the TSC Wlltchlis,ins Guidance to identifY the universe
of l'rogram participants in i,sstle. For these reasons, these WitSec Program participants are more
accurately de.scrlbed as "former known or suspected terrorists."

                                           Page 2of8




                                          -8­
                                                                                        APPENDIX I 





         In May 2012, OEO" the USMS. the FBI, and the TSC, in consultation with the
 Department's National Security Dhdsion and the National Joint Terrorism Task Force (NJTTF),
 finalized and simultaneously implementW. formal protocols to provide for specialized handling
 for fonner known or suspected terrorists in the WitSec Program. Recognized in the OIG Au<iit
 Report as a "significant milestone," these protocols require the robust and real-time sharing of
 information between all national security stakeholders. Since that time, the FBI, the TSC, and
 the NJTTF have had complete access to. the OEO and USMS files of each Program participant
 who is linked to a terrorism crime. Additionally. OEO and the USMS have disclosed to the FBI,
 the TSC. and the NJTTF the true and new identities and known aliases and other relevant
 information orall identified former known or suspected terrorists admitted into the WitSec
 Program.

          The Department has identified, located, and minimized the threat ofall fanner known or
 suspected terrorists admitted into the WitSec Program during its 40-year history. OEO and the
 USMS have worked together, along with our national security partners. to identify all former
 known or suspected terrorists ever admitted into the Program. For example. after developing the
 t:Jecessary security protocols, the USMS ran the true and new names and known aliases of al1
  I8,OOO-plus WitSec Program participants and their dependents - dating back to the creation of
 the Program in the 1970s - through the Terrorist Screening Database (TSDB), which includes
 th.e Consolidated Terrorist Watch list (Watchlist). OEO, in tum, is performing a manual review
 ofall IS.Ooo-plus case files to ensure that all fonner known or suspected terrorists ever admitted
 into the Program have been .identified. With the assistance <lfthe USMS. OBOaiready has
 completed its audit ofall case ftles for the last 18 years (i.e., 1996 t02013) and has not identified
 a single additional former known or suspected terrorist. 3 In addition, contrary to the suggestion
 in the OIG Audit Report, through the coordinated investigative efforts of the USMS and the FBI,
 the location ofall identified former known or .suspected terrorists.has been resolved. All· of
 this information IS being shared among the national security .stakeholders. And, as noted in
 the OIG Audit Report, for the past year under the new protocols, the Department has adopted
 a formal policy that prohibits Without exception WitSec Program Participants with a Watchlist
 status of"No Fly" from traveHng on commercial flights.

        The Department has actively worked with the 010 to improve the WitSec Program and
agrees with the 16 recommendations proposed iothe OIG Audit Report. In fact, as {!etailed
in our separate response to the recommendations made in the OIG Audit Repol't.4 the Department
already has completed action on 15 ofthose recommendations. With regard to the tinal


         3 Throughout this process, consistent with the May 2012 information sharing protocols,
. OBO has referred a small number ofcase files to the NJTTF for additional review even though
  the WitSec Program participants do not have Watchlist status.

       4 Due to the extensive law enforcement sensitive infonnation contained in the 

Department's responses to the specific OIG recommendations, they are being submitted under 

separate cover and not being made public. 


                                             Page30f8




                                           -9­
                                                                                    APPENDIX I 





recommendation. as noted above, tbeDepartment has completed its manual review ofnearly
two decades of WitSec Program flies. The Department remains committed to clos\'!ily monitoring
this. invaluable program, maintaining the sec.urity of witnesses and cooperators who have
prov.ided critiCliI assIstance to the United States, and preserving the safety ofthe public.

I.      E",olution of the WitSee Program to IUS1ude Terrorism Prosecutions

        Created by Congress over 40 years ago as part ofthe Organized Crime Control Act of
19705 to combat organized crime'syndicates, the WitSec Program has.played a crucial role in
the protectionofwitrtesses to violent crimes. enahling law enforcement officials llnd federal
prosecutors to bring to justice some oftbe world's most dangerous criminals. The Program
successfully has protected an estimated 18,300 participants - Including innocent victim·
witnesses and cooperating defendants and their dependents - from intimidation and retribution.
No witness or family member ofa witness who has followed Program guid\'!ilines ever has
been seriously injured or killed as a result of his or her cooperation. This vital and effective
prosecution tool allows the government to protect witnesses whose assistance is necessary
as part of criminal inVestigations and whose testimony is critical to secure convictions in
United States courts of law, military tribunals, and even foreign prosecutions.

        Over the last 20 years, as thegovemment bas devoted more resources to the prosecution
ofterrorism cases, the WitSec Program has evolved to include witnesses in domestic and
international terrorism prosecutions. 6 The Department's prosecution of terrorists requires
providing protection fora small number offomer kno.wn or suspected terrorists and their family
members, as well as innocent victims of and eyewitnesses to planned and t)Xecut(:d acts·ofterror,
whose cooperation, is essential to securing criminal convictions of those responsible fQrplanning
and committing acts oft\'!irror.7 Of note. over 60% of the identifi.ed former known or suspected

       S See Pub. L. No. 91·452, §§ 501·04,84 Stat. 922.933·34 (1970) (current version
codified at 18 U.S.C. §§ 3S21~28).
        ~ SeeThe Ejjectivene.fs .of/he Department ofJustice Witness Security Program Created
Under the Organized Crime Act of1970 to Protect Witnesses Who Test(fj; Against Traditional
Organized Crime Figures: Hearing Befol'e the Senate Committee on the JudiCiary, l04th Congo
873, at 43(1996) (statement of John C. Keeney, Acting Assistant Attorney General. Criminal
Division, U.S. Department of Justice) (ItAlthough our efforts continue to focus on the type of
traditional organized criminal activity, the detection and neutralization of other types of very
dangerous criminal organizations. such as terrorist groups, international narcotics traffickers,
andvio.lent street gangs, became an unfortunate reality for federal law enforcement. Obtaining
the cooperation of insiders is crucial to the successful prosecution of these organizations.
Securing the testimony of insider witne~e$ is often impossible without the Witness Security
Program. ") (emphasis added), available at http://www30.us.arohive.org/stream/oversightof
deparOOunit#page/nO/mode/lup.

       7 Given the .number ofparticipants since the WitSec Program's inception, terrorism·
linked witnessesrepr,\'!isent less than a fraction of 1% of the total Program population.
                                                Pllge 4 ofS




                                       - 10 ­
                                                                                APPENDIX I 





terrorists were admitted into the Program prior to September 11, 2001. In contrast, just two 

former known or suspected terrorists have been admitted into the Program and given a new 

identity and relocation services in the last six years. 


         The former known or suspected terrorists admitted into the Program have provided
invaluable assistance to the United States and foreign governments in identifYing and
dismantling terrorist organizations and disrupting terror plots. Among other investigations and
prosecutions, Program participants have provided essential cooperation and testimony regarding:
the 1993 World Trade Center bombing and "Blind Sheik" prosecutions; the 1995 bombing of the
Alfred P. Murrah Federal BUilding in Oklahoma City; the 1998 East Africa Embassy bombings;
the 2000 Millennium terror plot; the 2007 plot to bomb the John F. Kennedy International
Airport; and the 2009 New York City subway suicide-bomb plot. Each ofthese prosecutions
resulted in the conviction of individuals responsible for committing or attempting to commit
terrorist attacks against United States citizens. 8 As these cases show, the WitSec Program has
been a key law enforcement tool in securing cooperation from those witnesses who are necessary
to the successful prosecution of cases that are integral to the Government's counter-terrorism
mission and to the security of the United States.

         The Government generally cannot choose its witnesses. This is particularly true in
cases involving terrorism, where our witnesses are often former known or suspected terrorists,
or individuals who are close enough to terrorists to have information about them, their
organizations, and their plans, but whose cooperation is necessary to successfully prosecute those
who pose the most significant threat to our national security. Regardless of the prosecution's
target, however, no witness- in a terrorism case or otherwise - is admitted into the Program
without being subject to an intensive vetting by: the FBI or other sponsoring law enforcement
agency investigating the underlying criminal conduct; the United States Attorney for the district
prosecuting the underlying criminal conduct; the USMS, which protects and monitors witnesses
who require a change of identity and relocation services; and OEO, which oversees the WitSec
Program. Thus, as noted above, national security stakeholders such as the FBI have been deeply
involved in the Program admission process - often as the party sponsoring a terrorism-linked
witness's admission into the Program - even before the Department began implementing
changes to the Program's treatment of terrorism-linked witnesses. Indeed, of the identified
universe of terrorism-linked witnesses, the FBI sponsored nearly 80% of these witnesses into
the Program.


Moreover, "terrorism-linked witnesses" is a broad phrase that includes both innocent bystanders
(e.g., flight attendants on hijacked airplanes) and former known and suspected terrorists.

       8 E.g., In re Terrorist Bombings a/U.S. Embassies in East Africa, 552 F.3d 93 (2d Cir.
2008); United States v. Rahman, 189 F.3d 88 (2d Cir. 1999); United States v. McVeigh, 153 F.3d
1166 (lOth Cir. 1998); United States v. Ibrahim, No. 07-CR-543 CDLI), 2011 WL 4975291
CE.D.N.Y. Oct. 19,2011); see also United States v. Medunjanin, No. 10 CR 019, 2012 WL
1514766 (E.D.N.Y. May 1,2012).

                                           Page 5 of8




                                      - 11 ­
                                                                                       APPENDIX I 





          Moreover; a witness may he admitted into the Program only ifthe sponsoring law
enforcement officials can demonstrate through a thorough risk assessment that the witness's
value to the prosecution. the need to protect the witness. and the witness·s. suitability to the
Program Qutw~igh anypotential rlili's toptlbllc safety. The risk assessment includes an extensive
interview of the applicant by a USMS Inspector, a fuJI psychological evaluation ofthe witness,
and detailed consideration ofthe witness's criminal h~story, h~ 01'. ber value to the underlying
prosecution, the nature oftbe threat against the witness, and the risk that the witness might pose
to the rel(lCation community. See 18U.S..C. § 3521(c). Thus. the Department ball always
considered thepo~ntial risk to the public .posed by theenttyof a former known ~rSU$pected
terrol'i$t· into the WitSeel'rogram. (\sa restiltoftbis comprehensive risk assessment and the
roltivtltedrelationship between the Progrim.l participant and law enforcement. the Department is
unaware of any instance in which a terrorism-linked witness. bas committed an act ofterrorism
after enterlngtbeProgram.9 Indeed. as previously noted and reCognized in theOIG Audit
Report,. the FBI's review oftbis matter has not identified an immediate national security threat
directly tied to the participation ofterronsm.;linked witnesses. in the Program. JO

II.     ComR'etigD of, and§igoificagt Action 'raken on; ths OrG Recommendations

          Despite the WitSec Program'sdenlonstrated value and remarkable success over the
las.t four: decades, in May 2010 - prior to the commencement ofthis 010 audit - new leadersbip
at OBO recognized that the l'rograIh's handling of terrorism-linked witnesses needed to be
improved. At tbat time, the newly appointed OEO Director, in consultation. with the USMSand
EBI, identified several areas in which the martagement ofterrorism-linked Program participants
required significant changes,and enhanced oversight. I I The OEO Director then initiated the

       .9 Complementary .PQblic safe1:y measures include: the supervision by the United States
Probation Office ofcertain Program participants whoa:re on supervised release; and the routine
review, including terrorist database checks, of certain Program participants by the Department of
Homeland Security's ltnmigration and Customs Enforcement in connection with any evaluation
ofimmigration status.
         10 TbeOIO Audit Report notes that a USMS Inspector once suspected a Program
participant ''Was trying to gather inte1ljgence on sensitive PQliciesandprocedures ofthe[J WitSec
Program for militant Muslim groups," and that the USMS failed to share this information with
the FBI. A DBMS review ofthis matter concluded that the Program participant's questions
about the Program's administration were for the purpose ofgatherlng information to suppprt the
witness's pending financial support (i.e., c)otnlng allowance) grievance and were not an effort
to infiltrate the Program. The NJTTF' has reviewed the USMS field report regarding this incident
and concurred with DSMS's conclusion there was no factual basis for believing the Program
participant was attempting to glean intelligence about the WitSec Program.

        11 In March 2011, in Qrder to ensure meaningful oversight ofthe Programby a Senior
Executive Service manager. the Assistant Attorney General for the Criminal Division executed
an order elevating the management ofthe WitSec Program to the OEO Director. Prior to the
order, Program oversight had been delegated to an OEO Associate Director.
                                           Page6of8




                                         - 12 ­
                                                                                 APPENDIX I 





following reforms prior to the commencement of this audit:

    • 	 Detailed an experienced prose"utor, subsequently named Chief ofthe OEO Special
        Operations Unit, to review policies and make recommendations concerning the admission
        offooner known or suspected terrorists into the WitSec Program.

    • 	 Mandated that the FBI be notified in aU cases whenever a former known· or suspected
        terrorist is admitted into the Program.

    • 	 Began developing a master list ofall former known or suspected terrorists ever admitted
        into the Program, including those who were admitted prior to the creation oftbeTSC,
        the TSDB, and theWatchHst.

    • 	 Coordinated with the USMS, the FBI, and the NJTTF to develop formal procedures
        to manage former known orsusp.ec:ted terrorists admitted into the Program.

The Department developed formal protocols. implemented in. May 2012, that provide for greater
oversight ofthe evaluation and screening ofProgram applicants, as well as for enhanced
monitoring ·of former known or suspected terrorists admitted into the Program.

         As noted above and detailed in our responses .to the 16 recommendations made in the
DIG Audit Report, the Department already has completed action on 15 reCQmmendations and
taken significant action on the sole remaining recommendation. F{}rexample, de:;pite the OIG
Audit Report's suggestion to the c.ontrary, and as documented in reports provided to theOIG
throughout this audit, OEO and the' USMS have disclosed to the FBI. the TSC. and the NJITF .
the WitSec Progtamstatus and the tnle and new. government-providedldentifYing information
for all identified former known .or suspected tettorists admitted intp· the Program•. Going
forward. the formal protocols require notificatiCm to the FBI and the TSC whenever a former
known or suspected terrorist enters the Program, is provided with a new identity, is proVided
withrelocation services, or leaves the Program. The Department also has developed and put into
effect more stringent monitoring protocols different from those used to Wattage traditional
organized crime or gangme:mbers admitted into the Program. Among other things, the enhanced
protocols adopted by the Department - and in effect for neatly a year .... mandate the following:

   • 	 Information about terrorism-linked applicants to the Program must be shared among
       OEO, the USMS. the FBI, and the TSC.

   • 	 In cases where an agency other than theFlJI is sponsoring a terrorisrn.-Hnked witness for
       relocation services, OED also shall request that the FBI conduct a fisk assessment to be
       used by the OEO Director in determining Program suitability.

   • 	 OEO must consult with the Department's National Security Division prior to admitting
       a terrorism-linked witness into. the Program.

                                           Page7of8




                                      - 13 ­
                                                                              APPENDIX I 





    • 	 Every new applicant must be run through the TSDB before any decision is made to
        autborizeProgram services.

    • 	 All National Crintinal Instant Background Checks runs on WitSec Program applicants
        must include a Query GangMemher search which identifies gang membership, terrorist
        organization affiliation,and Watchlist status.

    • 	 OEO and the U$MS must share new identity information for terrorism·olinked witnesses
        with the FBI and the NJTTF and, fOrwatchlisting purpos.es~ the TSC.

    • 	 The USMS must eonduCtregular computer indices ehecks on each terrorism·linked
        Program participant who .is currently in the Program or being provided with immigration
        or identity support services, unless otherwise directed by the OEODirector.

    • 	 The USMS must conduct face-to..,face meetings several. times a year with terrorism~linked
        Program participants who are currently in the Program or being provided with
        immigration or identity support services., unless otherwise direetedby the OEO Director.

    • 	 The FBI and the TSC must b:egranted fuIl.a:.ccessto OEO and USMS case files for
        terrorism-linked.witnesses.

   '. 	 Quarterly meetings between OEO and the USMS- also attended by the fBI, the TSC,
       and the' NmF - must be held to ensure proper oversight and coordination, as well as
       information sharing betWeen and among these national seeuritystakeholders.

   • 	 The TSC must notify the. NJTTF, the USMSi and OEO of all encounters of former known
       or suspected terrorists that have been watchlisted.

These are some ofthe iinportant changes to the WitSec Program that the Department has
implemented to mailltainits reliability and value as a law enforcement to.ol while simultaneously
protecting our citizens and our Nation fro.m potential futur.e harm. The Department agrees that
the reoent proto.eol changes were necessary, will ensure the WitSec Program's continued vitality,
and will provide additional security to the public.




                                           Page 8 of8




                                    - 14 ­
                                                                 APPENDIX II 


             OFFICE OF THE INSPECTOR GENERAL
          ANALYSIS OF THE DEPARTMENT OF JUSTICE'S
             RESPONSE TO THE PUBLIC SUMMARY

       The OIG provided to the Department a draft of this summary of our
 interim report on the Department of Justice's Handling of Known or
 Suspected Terrorists Admitted into the Federal Witness Security (WITSEC)
 Program. The Department's written response to this summary is
 incorporated in Appendix I. The following provides the OIG analysis of this
 response.

 Department Actions to Address DIG Recommendations

        As stated in this summary report, the full version of our interim report
 is Limited Official Use and contains 16 recommendations to assist the
 Department in its efforts to include national security considerations when
 identifying, admitting, monitoring, and terminating WITSEC Program
 participants who are known or suspected terrorists. The Department agreed
 with all 16 recommendations.

         In closing its response to the public summary report, the Department
  listed several reforms that it states it has implemented to improve its
  terrorism-related protocols for WITSEC Program applicants and participants.
  Many of these stated reforms are in response to our findings and directly
. address the recommendations that we made in the full report and that we
  shared with the Department throughout our review so it could take
  immediate action to remedy the serious national security vulnerabilities we
  identified. Further, the Department stated in its response that it "agrees
  that the recent protocol changes were necessary, will ensure the WITSEC
  Program's continued vitality, and will provide additional security to the
  public."

      We reviewed the Department's response to the full interim report and
determined that the Department has provided adequate evidence of
corrective action to close 3 of the 16 recommendations. The remaining 13
recommendations are resolved and will be closed upon the submission of the
information indicated below. We will follow up with the Department to
obtain support for actions it states it has taken and plans to take on the
remaining recommendations. Further, as we continue our review we intend
to evaluate the Department's implementation of its newly developed
protocols designed to address the vulnerabilities we identified.




                                       15 

                                                              APPENDIX II 


The Department's Use of the Term "Former" Known or Suspected Terrorist

       The Department stated in its response that the DIG interim report
"fails to take into account the extensive vetting [the] WITSEC participants
undergo before being formally sponsored, and then admitted, into the
[WITSEC] Program, and the fact that these individuals are cooperating with
the government, and often testify in terrorism-related prosecutions." The
Department also stated that a broader definition than that contained in
Terrorist Screening Center Watchlisting Guidance was used to identify the
universe of WITSEC Program participants with links to terrorism-related
activity. For these reasons, the Department stated that it is more accurate
to refer to known or suspected terrorists in the WITSEC Program as "former"
known or suspected terrorists.

       We believe the Department rightly applied a broader definition to
identify WITSEC Program participants with known and potential ties to
terrorism. However, as we indicate in our report, we were told by TSC
personnel that there is no "former" known or suspected terrorist designation.
The TSC's Watch listing Guidance provides definitions for "known terrorist"
and "suspected terrorist" and the TSC determined, during the course of our
review, that some current and former WITSEC Program participants fell
within these established definitions. Moreover, as a result of our review,
several known or suspected terrorists in the WITSEC Program were added to
the U.S. government's No Fly list or the Selectee list and the Department
determined that certain WITSEC participants on the consolidated terrorist
watchlist should be removed from the watchlist because they did not satisfy
the definition of a known or suspected terrorist. We concur with the
Department's statement in its response that the suitability requirements
used in determining an individual's admission into the WITSEC Program
should be enhanced for terrorism-linked witnesses.

The Department's Implementation of Terrorist-Related Protocols

      In its response, the Department stated that when our review
"commenced in October 2011, OED, the USMS, and the FBI were already
working to remedy... the information sharing deficiencies between national
security stakeholders concerning terrorism-linked witnesses admitted into
the WITSEC Program." However, shortly after we began our review we
found that information sharing and coordination between OED, the USMS,
and DOJ's national security stakeholders regarding the WITSEC Program was
inconsistent, inadequate, and informal.




                                     16 

                                                                APPENDIX II


      The Department stated in its response to this summary report that in
May 2012 it implemented formal protocols for admitting and monitoring
known or suspected terrorists in the WITSEC Program. Given the
importance of these protocols and the substantial time it took the
Department to develop and finalize them, we noted in our full interim report
that this was a \\significant milestone."

The Department's Identification of Known or Suspected Terrorists

       In its response to this public summary report, the Department stated
that it \\has identified, located, and minimized the threat of all former known
or suspected terrorists admitted into the WITSEC Program during its 40-year
history." We agree that the Department followed our recommendation and
ran all WITSEC participants' true and new names and known aliases against
the consolidated terrorist watch list. This process helped the Department
identify individuals with ties to terrorism whom it had not identified in its
preliminary review of WITSEC case files. The Department also stated in its
response that it has completed its manual review of all WITSEC files since
1996, but that it still needs to manually review files from prior to 1996.
While this manual review has not identified any additional known or
suspected terrorists admitted into the WITSEC Program, we believe that only
upon completion of this review will it be possible for the Department to state
definitively that it has identified, located, and minimized the threat of all
known or suspected terrorists admitted into the WITSEC Program during its
existence.




                                      17 

